Appendix

Case: 19-50931

Document: 00515422126

Page: 1

Date Filed: 05/19/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50931
Summary Calendar

FILED
May 19, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CARLOS MEZA-CRUZ,
Defendant-Appellant
********************************************************
Consolidated with 19-50941
UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
CARLOS MEZA-CRUZ, also known as Carlos Meza Cruz, also known as Carlos
Meza-Ruiz, also known as Jesus Meza, also known as Carlos Mesa-Cruz, also
known as Carlos Cruz Mesa,
Defendant-Appellant
Appeals from the United States District Court
for the Western District of Texas
USDC No. 4:19-CR-527-1
USDC No. 4:19-CR-263-1

1a

Case: 19-50931

Document: 00515422126

Page: 2

Date Filed: 05/19/2020

No. 19-50931
c/w No. 19-50941
Before SMITH, DENNIS, and DUNCAN, Circuit Judges.
PER CURIAM: *
Carlos Meza-Cruz appeals his 70-month within-guidelines sentence
imposed following his guilty plea for illegal reentry after removal from the
United States, in violation of 8 U.S.C. § 1326. He also appeals the concomitant
revocation of his supervised release related to his prior convictions for
conspiracy to possess with intent to distribute marijuana, in violation of 21
U.S.C. §§ 846 and 841(b)(1)(D), possession with intent to distribute marijuana,
in violation of § 841(b)(1)(D), and illegal reentry of a removed alien, in violation
of § 1326.
Raising one issue on appeal, Meza-Cruz argues that his new illegal
reentry sentence, imposed under § 1326(b)(2), violates his due process rights
by exceeding the two-year statutory maximum set forth in § 1326(a) because
the indictment did not allege a prior conviction necessary for the § 1326(b)(2)
enhancement. He concedes that this argument is foreclosed by AlmendarezTorres v. United States, 523 U.S. 224, 226-27 (1998), but seeks to preserve the
issue for further review.

The Government filed an unopposed motion for

summary affirmance agreeing that the issue is foreclosed and, in the
alternative, a motion for an extension of time to file a brief.
As the Government argues, and Meza-Cruz concedes, the sole issue
raised on appeal is foreclosed by Almendarez-Torres. See United States v.
Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v. Pineda-Arrellano,
492 F.3d 624, 625-26 (5th Cir. 2007). Because the issue is foreclosed, summary

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

2

2a

Case: 19-50931

Document: 00515422126

Page: 3

Date Filed: 05/19/2020

No. 19-50931
c/w No. 19-50941
affirmance is appropriate. See Groendyke Transp., Inc. v. Davis, 406 F.2d
1158, 1162 (5th Cir. 1969).
Although the appeals of Meza-Cruz’s illegal reentry conviction and
supervised release revocation were consolidated, he does not address the
revocation in his appellate brief.

Consequently, he has abandoned any

challenge to the revocation or revocation sentence. See Yohey v. Collins, 985
F.2d 222, 224-25 (5th Cir.1993).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgments of the district court are AFFIRMED. The
Government’s alternative motion for an extension of time to file a brief is
DENIED.

3

3a

8 U.S.C. § 1326. Reentry of removed aliens
(a) In general
Subject to subsection (b), any alien who—
(1) has been denied admission, excluded, deported, or removed
or has departed the United States while an order of exclusion, deportation, or removal is outstanding, and thereafter
(2) enters, attempts to enter, or is at any time found in, the
United States, unless (A) prior to his reembarkation at a
place outside the United States or his application for admission from foreign contiguous territory, the Attorney
General has expressly consented to such alien's reapplying
for admission; or (B) with respect to an alien previously denied admission and removed, unless such alien shall establish that he was not required to obtain such advance consent under this chapter or any prior Act,
shall be fined under Title 18, or imprisoned not more than 2
years, or both.
(b) Criminal penalties for reentry of certain removed aliens
Notwithstanding subsection (a), in the case of any alien described in such subsection-(1) whose removal was subsequent to a conviction for commission of three or more misdemeanors involving drugs, crimes
against the person, or both, or a felony (other than an aggravated felony), such alien shall be fined under Title 18,
imprisoned not more than 10 years, or both;
(2) whose removal was subsequent to a conviction for commission of an aggravated felony, such alien shall be fined under
such title, imprisoned not more than 20 years, or both;
(3) who has been excluded from the United States pursuant to
section 1225(c) of this title because the alien was excludable
under section 1182(a)(3)(B) of this title or who has been removed from the United States pursuant to the provisions of
subchapter V, and who thereafter, without the permission

4a

of the Attorney General, enters the United States, or attempts to do so, shall be fined under Title 18 and imprisoned for a period of 10 years, which sentence shall not run
concurrently with any other sentence. or
(4) who was removed from the United States pursuant to section 1231(a)(4)(B) of this title who thereafter, without the
permission of the Attorney General, enters, attempts to enter, or is at any time found in, the United States (unless the
Attorney General has expressly consented to such alien's
reentry) shall be fined under Title 18, imprisoned for not
more than 10 years, or both.
For the purposes of this subsection, the term “removal” includes any agreement in which an alien stipulates to removal
during (or not during) a criminal trial under either Federal or
State law.
(c) Reentry of alien deported prior to completion of term of imprisonment
Any alien deported pursuant to section 1252(h)(2) of this title
who enters, attempts to enter, or is at any time found in, the
United States (unless the Attorney General has expressly consented to such alien's reentry) shall be incarcerated for the remainder of the sentence of imprisonment which was pending
at the time of deportation without any reduction for parole or
supervised release. Such alien shall be subject to such other
penalties relating to the reentry of deported aliens as may be
available under this section or any other provision of law.
(d) Limitation on collateral attack on underlying deportation order
In a criminal proceeding under this section, an alien may not
challenge the validity of the deportation order described in subsection (a)(1) or subsection (b) unless the alien demonstrates
that—
(1) the alien exhausted any administrative remedies that may
have been available to seek relief against the order;

5a

(2) the deportation proceedings at which the order was issued
improperly deprived the alien of the opportunity for judicial
review; and
(3) the entry of the order was fundamentally unfair.

6a

